Mission
The Office of Inspector General is an independent and objective voice
that helps Congress, the Board of Directors and PBGC protect the
pension benefits of American workers by promoting positive change,
accountability and integrity.


Vision
We will be recognized by our stakeholders as the primary source of
objective & independent information for their key decisions.


Values
Respect
We will treat others as we would like them to treat us.


Integrity
We will be a role model of ethical behavior.


Excellence
We will constantly innovate & improve the quality and value of our work.
                              Pension Benefit Guaranty Corporation
                                                              Office of Inspector General
                                                 1200 K Street, NW, Washington, DC 20005-4026


										                                                                     October 31, 2007

The Board of Directors
Pension Benefit Guaranty Corporation


On behalf of the Office of Inspector General for the Pension Benefit Guaranty Corporation, I am
pleased to submit this Semiannual Report to the U.S. Congress for the 6-month period ending
September 30, 2007. It details our efforts to improve the economy and efficiency of PBGC operations,
our efforts to prevent fraud, waste and misconduct, and fulfills our reporting requirements under the
Inspector General Act.

Significant leadership change occurred during this period at PBGC. In June, Charles E.F. Millard was
appointed as the first presidentially-appointed Interim Director; he is awaiting Senate confirmation.
We’ve met frequently with Mr. Millard to discuss PBGC’s management challenges, in particular the
need to correct internal control weaknesses identified in the financial statement audit. He has
demonstrated a strong commitment to good governance and supporting PBGC leaders as they
address PBGC’s challenges. PBGC also selected a new Chief Information Officer, Patsy Garnett. From
the first, we have established a strong collaborative relationship with Ms. Garnett, who is committed
to implementing long-term information technology solutions and ensuring that all PBGC leaders
understand their part.

A more personal change for the OIG occurred when the Inspector General Robert Emmons announced
in July that he would retire on October 2. In his almost 5-year tenure as Inspector General, he
transformed the office into a stakeholder-focused organization. Mr. Emmons led this change by
example, constantly engaging PBGC decision-makers in conversations about their challenges and
work the OIG might do to address them. He challenged staff to recognize that all are leaders and
must work at developing effective relationships. He worked tirelessly on behalf of the IG community
to define core competencies and design a first-class training academy for management, auditors
and investigators. Mr. Emmons’ legacy of building effective relationships through continual
communication is now part of the OIG culture. Thanks, Bob!

PBGC’s major management challenges are: Governance, Stewardship, PBGC Business Model,
Information Technology, and Procurement and Contracting. As a whole, we focus our audits,
investigations, management advisories and consultations on these significant issues the Board and
PBGC are facing. And, we report all of our work under these challenge areas.

Governance – internal at PBGC and external with the Board – was addressed in several reports issued
by the Government Accountability Office, in which we consulted. Those reports echoed observations
we made in prior reports. In the Stewardship challenge area, significant resources were devoted to
consulting about and overseeing the audit of PBGC’s FY2007 financial statements.
Our office continues to work closely with management in addressing conditions
reported in previous financial statement audits. The application of a new financial
audit standard that lowers the threshold for internal control reporting led to significant
discussions between the OIG, auditors and management. We commend PBGC leaders
for focusing attention on resolving reported internal control issues. This commitment
resulted in departments working together to correct identified contingency
planning issues, which led to closing of a reportable condition. To deter fraudulent
claims, protect the pension benefits of participants and safeguard PBGC assets, the
investigators aggressively pursued individuals who fraudulently obtained participants’
pension benefits.

In the PBGC Business Model challenge, we continued our review of the multiemployer
program by initiating the first in a series of audits of terminated but not yet insolvent
multiemployer pension plans. We conducted audits and investigations to address
information technology concerns, including reporting progress to OMB on information
security and working with management to recover stolen laptops. In contracting
and procurement, we issued four reports that questioned more than $1 million in
costs and made recommendations to improve the Corporation’s ability to verify the
reasonableness and supportability of contractor billings.

I thank our staff, who exemplify daily our values of respect, excellence and integrity as
they accomplish their work. I appreciate the spirit of cooperation with the Board and
PBGC and openness to discuss their challenges and possible solutions. We are proud
to be part of an organization that protects the pensions of over 44 million Americans,
and will constantly strive to keep its programs efficient, effective, and free from fraud,
waste and abuse.




Deborah Stover-Springer
Acting Inspector General




Pension Benefit Guaranty Corporation
Table of Contents
Letter to the Board of Directors


Executive Summary  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
	      The Pension Benefit Guaranty Corporation
	      The Office of Inspector General

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
	      Governance
	      Stewardship
	      PBGC Business Model
	      Information Technology
	      Procurement and Contracting
	
Other OIG Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
	      Access to Information
	      Management Decisions

Other Office of Inspector General Activities  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
	      Review of Proposed Statutory and Regulatory Changes
	      Outreach to Field Offices
	      Audit Follow-up Working Group
	      Peer Review of FLRA OIG Investigations
	      External Activities
	      OIG Strategic Initiatives

Appendix  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
	      Cross-Reference to Reporting Requirements of the Inspector General Act
	      Reports Issued with Questioned Costs and Funds Put to Better Use
	      Significant Problems, Deficiencies and Recommendations
	      Summary of Investigative Activities

Glossary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31




                                                  Semiannual Report Of The Inspector General—MARCH 2007                                       iii
Pension Benefit Guaranty Corporation
Executive Summary
This Semiannual Report to Congress summarizes the activities and accomplishments of
the Pension Benefit Guaranty Corporation (PBGC) Office of Inspector General (OIG) for
the period April 1, 2007 through September 30, 2007. When accomplishing audit and
investigative work, we ensure that it accords with our mission to be an independent
and objective voice for Congress, the Board of Directors, and PBGC. We want to focus
our work on the challenges facing PBGC and to be the primary source of timely and
objective information for the organization.
We have designated five areas as PBGC’s major management challenges: Governance,
Stewardship, PBGC’s Business Model, Information Technology, and Procurement and
Contracting. The Business Model challenge relates to how PBGC programs can adapt
to a changing environment to provide superior service and generate cost-savings. We
plan audit and proactive investigative work to address these challenges. Significant
audit and investigative activity this period includes:
• Governance— PBGC’s new Interim Director has shown a commitment to good                       PBGC’s Interim
governance, supporting PBGC leaders’ correction of identified financial statement
audit weaknesses and frankly discussing difficult ethics issues. The Board of Director’s   Director has shown a
oversight role continued as a focus area; revised By-Laws are before the Board for
                                                                                           commitment to good
approval (see pages 5-7).
                                                                                           corporate governance.
• Stewardship— The financial statement audit was a significant activity and the new
internal control reporting standard was briefed to management and the Advisory
Committee. Investigations aggressively pursued conviction of and recovery from
individuals who fraudulently obtained pension benefits and determined an employee
submitted false documents to receive childcare subsidies (see pages 7-12).
• PBGC Business Model— We are auditing terminated but not yet insolvent
multiemployer plans for protection of plan assets and potential PBGC savings of future
financial assistance payments. PBGC is implementing recommendations from our prior
audit to close-out certain insolvent multiemployer plans (see page 12-15).
• Information Technology — Our post-implementation review and performance audit
of a significant actuarial valuation system recommended that PBGC perform a cost-
benefit analysis before expending more funds; PBGC’s work in emergency preparedness
resulted in resolving a reportable condition; and our FISMA report noted improvement.
Investigators recovered three missing laptops (see pages 15-18).
• Procurement and Contracting— Four incurred costs audits questioned more than
$1 million in billed costs, and a report to the new Procurement Director cumulated the
procurement audits since 2000 to show trends in identified weaknesses. Investigations
included a contractor employee who falsified time records, and possible disclosure of
procurement sensitive information (see pages 19-22).

Among the OIG’s other activities, we completed our outreach to PBGC’s Field Benefit
Administration offices to educate about OIG’s mission and fraud awareness, conducted
an investigative peer review, participated in IG community initiatives, and made
significant progress in our strategic initiatives to implement an electronic workpaper
system for audit and develop a new performance management system.




                             Semiannual Report Of The Inspector General—September 2007     1
2   Pension Benefit Guaranty Corporation
Introduction
The Pension Benefit Guaranty Corporation
The Pension Benefit Guaranty Corporation (PBGC or the Corporation) was established
under Title IV of the Employee Retirement Income Security Act of 1974 (ERISA), as
amended (29 U.S.C. §§ 1301-1461), as a self-financing, wholly owned federal government
Corporation to administer the pension insurance program. ERISA requires that PBGC:
(1) encourage the continuation and maintenance of voluntary private pension plans, (2)
provide for the timely and uninterrupted payment of pension benefits to participants and
beneficiaries, and (3) maintain premiums at the lowest level consistent with carrying out
PBGC’s obligations.

For about 44 million Americans, PBGC provides assurance that their retirement benefits
will be paid, up to a statutory limit. PBGC protects the pensions of participants in certain
defined benefit pension plans (i.e., plans that promise to pay definitely determinable
retirement benefits). Such defined benefit pension plans may be sponsored individually
or jointly by employers and unions. PBGC is now responsible for the pensions of about 1.3
million people; it pays about $360 million a month to about 600,000 current retirees.                 PBGC has more than

During FY2007, PBGC managed over $68 billion in assets and paid approximately $4.3                    $68 billion in assets.
billion in benefit payments to retirees. Despite significant deficits in both the single-
employer and multiemployer programs, the Corporation has sufficient liquidity to meet its
obligations for a number of years. However, neither program at present has the resources
to satisfy all of the benefit obligations already incurred, much less future obligations likely
to be assumed.

The Office of Inspector General
Our Office of Inspector General (OIG) was created under the 1988 amendments to the
Inspector General Act of 1978. Our mission is to be an independent and objective voice
that helps the Congress, the Board of Directors, and PBGC protect the pension benefits
of American workers by promoting positive change, accountability, and integrity. With
twenty-two staff, the OIG conducts agency audits, inspections and investigations;
participates in agency-wide working groups; and provides consultations to provide our
stakeholders with information they need to make decisions.

To provide value, we focus our work on the challenges that PBGC is facing, whether we
are issuing audits, evaluations and investigative reports, or consulting with PBGC and
participating on various teams and in working groups. We are committed to our values of
respect, excellence, and integrity in all we do.

Our approach to audit planning concentrates on identifying issues important to PBGC. We
maintain an inventory of suggested audits we receive from a variety of sources, including
the Board of Directors and PBGC management. Each year, we assess risk in terms of
materiality, impact on operations, and potential for adverse publicity for the Corporation.
Based on this risk assessment, we identify the most important challenges on which to
focus our work. The final step is to plan and conduct audits that address those challenges.

                             Semiannual Report Of The Inspector General—September 2007            3
                          We continue to focus on these major questions:

                            • Does PBGC have a governance model that ensures reliable and complete financial
                              reporting, effective customer service, and ethical business dealings?
                            • Does PBGC have strong controls that are needed to protect assets and minimize
                              costs?
                            • Does PBGC continuously adapt to a changing environment to provide optimal
                              customer service and generate cost savings?
                            • Do PBGC’s information systems maximize customer service while protecting the
   OIG uses risk              privacy and integrity of information?
                            • Do PBGC contractors provide quality products and services at a reasonable price?
  assessments to

identify management       Further, as required by the Chief Financial Officers Act, we continue to audit PBGC’s
                          financial statements. The OIG contracts with an independent public accountant to
    challenges.           perform this work.

                          For investigations, we maximize our limited resources by applying strict criteria in
                          evaluating the quality of the allegations received. For example, we evaluate allegations
                          against the potential criminal and civil violations, the statute of limitations, potential
                          for negative publicity for PBGC, and total assets involved. This allows us to concentrate
                          on investigative issues that are most important to PBGC. We also have pro-active
                          initiatives in the Stewardship and Procurement management challenge areas.

                          The OIG follows the standards contained in the Quality Standards for Federal Offices
                          of Inspector General, published by the President’s Council on Integrity and Efficiency
                          (PCIE) and the Executive Council on Integrity and Efficiency (ECIE). These standards
                          require audits to be conducted in accordance with Generally Accepted Government
                          Auditing Standards, issued by the Government Accountability Office. Our investigations
                          comply with PCIE and ECIE Quality Standards for Investigations.




                      4   Pension Benefit Guaranty Corporation
Management Challenges
Again in 2007, PBGC experienced a decline in the number of pension plans it trusteed
and participants for whom it assumed responsibility for paying future benefits. PBGC
expects this trend will continue for the next several years. PBGC is also implementing
major statutory amendments as a result of the Pension Protection Act of 2006, including
higher premium rates and more strict pension plan funding requirements. These
external factors create new challenges and opportunities for PBGC.

We’ve identified five major management challenge areas: Governance, Stewardship,
PBGC’s Business Model, Information Security, and Procurement and Contracting. Our
goal is to conduct audit and investigative work in all management challenge areas and
have a positive impact on the decision-making process of the Board of Directors and
PBGC management.

1.	     Governance
Among the reasons governance is a major challenge for PBGC are:

  •	 it is a financial corporation with billions of dollars of assets to manage yet is also a
     federal agency that provides a social welfare program;
  •	 its Board of Directors is comprised of three cabinet-level Secretaries - Labor, Treasury   Oversight by Congress,
     and Commerce - who oversee and set policy for PBGC;                                             the Board, PBGC
  •	 it deals with some of the largest U.S. employers in fulfilling its mission to encourage
                                                                                                management and OIG
     continuation of defined benefit pension plans and protect the benefits owed to
     those participants, balanced with protecting PBGC’s financial health as it struggles       are critical to effective
     with a deficit and record numbers of participants in terminated pension plans.
                                                                                                corporate governance.

Oversight of the financial operation and financial reporting by the Board of Directors,
PBGC management and the OIG is critical to effective corporate governance. Equally
important is the ethical tone set by PBGC leaders as we conduct our business.

PBGC’s Interim Director

Charles E.F. Millard was appointed as PBGC’s Interim Director in June, pending
confirmation by the Senate. The Inspector General (IG) and other OIG leaders met
often with Mr. Millard, who is new to federal government service, to orient him to the
OIG’s oversight role. Other topics included reportable conditions from the financial
statement audit, other management challenges, and PBGC’s ethics environment. Mr.
Millard evidenced his commitment to good governance by, among others, supporting
PBGC leaders in aggressively addressing the reportable conditions and their underlying
recommendations, and engaging in frank discussions with the OIG about some difficult
ethics issues. At our suggestion, he invited the Office of Government Ethics Director,
Robert Cusick, to come discuss best practices for a robust ethics environment. The Office
of the General Counsel and OIG participated in that meeting.




                              Semiannual Report Of The Inspector General—September 2007          5
                               The Board of Directors Oversight

                               The Board met in May, at which time we briefed the members on the results of the
                               FY2006 financial statement audit. The briefing included the status of reportable
                               conditions in the Report on Internal Controls and a discussion of new reporting
                               standards for the FY2007 audit (new standards discussed in Stewardship, below). The
                               Inspector General also met in Executive Session with the Board.

                               The staff of the Board members worked with the Secretary of the Board to prepare
                               revised By-laws that are before the Board for their approval. Among other things,
                               the revised By-laws recognize the new statutory PBGC Director position and better
                               define the reporting relationships between the Board and PBGC and the Board and
                               the Inspector General, matters which were noted in recent OIG and Government
                               Accountability Office (GAO) reports (see below).

                               In addition, the role of the Board of Directors was examined in a variety of contexts.
                               For example:

                                 • We coordinated with the GAO staff who conducted work on PBGC’s governance
                                   and management structure requested by the Senate Finance and HELP
                                   Committees. In one report, PBGC: Governance Structure Need Improvements to
                                   Ensure Policy Direction and Oversight (GAO-07-808, July 2007), GAO assessed:
                                     (1)the extent to which PBGC’s governance structure provides PBGC
                                       management with policy direction and oversight; and
                                     (2)whether the administrative responsibilities among PBGC’s board, the
                                       Department of Labor (DOL), and PBGC’s management are clearly defined.

Governance: is the Board
                                   With respect to the Board of Director’s governance, GAO concluded that,
  structure optimal for            because of time and resource constraints, the Board structure of three cabinet-
 effective oversight and           level secretaries is not optimal for effective oversight and policy direction.
                                   In addition, there are no written procedures to ensure PBGC management
    policy direction?              provides information on all policy matters, and no written protocols for the
                                   Inspector General’s reporting to the Board though it relies on the IG to provide
                                   oversight. The lack of reporting processes can limit the effectiveness of the
                                   Board’s oversight because “it cannot be certain that it is receiving high-quality
                                   and timely information about all significant matters facing the corporation.”
                                   We reached a similar conclusion in our evaluation report of PBGC’s actions in
                                   selling United Airlines stock claims, and recommended that PBGC and the Board
                                   develop reporting guidance. (See Semiannual Report to Congress, March 31, 2006
                                   – September 30, 2006.)


                                   With respect to the clear distinction among the Board, DOL and PBGC
                                   management, GAO concluded that PBGC lacks formal guidelines to articulate the
                                   administrative roles of these parties which has led to “confusion and inefficiencies.”
                                   By statute, PBGC is a corporation “established within the Department of Labor.”
                                   GAO noted that neither the Board, DOL, nor PBGC has addressed the “extent to


                           6   Pension Benefit Guaranty Corporation
   which PBGC is a separate and distinct executive agency, a fact that has resulted
   in confusion over when DOL has the authority to manage PBGC operations.” This
   issue was the subject our audit of whether PBGC was required by DOL to pay a
   disproportionate share of the development costs of EFAST2, a DOL system. (See
   Semiannual Report to Congress, March 31, 2006 – September 30, 2006.)


 • In another report, GAO examined the impact on PBGC’s governance and
   management of the separation of the Office of the General Counsel (OGC) into
   two entities (PBGC’s Legal Support: Improvements Needed to Eliminate Confusion
   and Assure Consistent Legal Advice, GAO 07-757R, May 18, 2007). The Counsel’s
   office was split, with some attorneys staying in OGC for general law matters such
   as procurement, labor relations, and ethics, as well as advising the Director on
   legal matters relating to the agency’s mission. The majority of attorneys were
   transferred to a new Office of Chief Counsel (OCC), within a new program office,
   responsible for ERISA and bankruptcy litigation and supporting negotiations
   with plan sponsors. GAO concluded that the reorganization had not clearly
   defined the roles and responsibilities of OGC and OCC, and PBGC was vulnerable
   to inconsistent legal advice. GAO cited our evaluation report of PBGC’s actions
   in selling United Airlines stock claims in which we reached a similar conclusion
   and recommended that PBGC develop guidance for internal reporting and
   consultation across functional lines for such significant matters. (See Semiannual
   Report to Congress, March 31, 2006 – September 30, 2006.)
                                                                                          OIG assisted Congress
 • Among our Congressional briefings this period, we met with the Senate Health,               in preparing for
   Education, Labor and Pensions Committee and Senate Finance Committee in their
   preparations for confirmation hearings for PBGC’s first presidentially-appointed,             confirmation
   Senate-confirmed Director. Important topics included the Board’s governance role           hearings for PBGC’s
   and the Inspector General’s continued reporting to the Board.
                                                                                              first presidentially-

We will continue to work with the Board and management for a governance model                 appointed Director.
that ensures reliable and complete financial reporting, effective customer service, and
ethical business dealings.

OIG Member of PBGC Internal Control Committee

The Assistant Inspector General for Investigations serves as a non-voting member of
the PBGC Internal Control Committee. This committee is responsible for oversight
and accountability regarding PBGC internal controls over financial reporting and
its operations consistent with the Standards for Internal Control for the Federal
Government (GAO Green Book), OMB Circular A-123, and Federal Managers’ Financial
Integrity Act requirements. During this period, the committee initiated efforts to
address potential invalid social security numbers.




                            Semiannual Report Of The Inspector General—September 2007     7
                              2. Stewardship
                              The OIG’s work in the “Stewardship” area focuses primarily on PBGC’s stewardship
                              of entrusted resources, which includes fraud prevention, detection of improper
                              payments, protecting participant data, and safeguarding plan assets close to plan
                              termination, as well as the Corporations’ overall financial management. Several
                              aspects of PBGC’s Stewardship goal are covered separately in OIG’s management
                              challenge areas - i.e., corporate governance, information technology, and procurement
                              and contracting - but our goals are similar: improving the Corporation’s stewardship of
                              trust funds.

                              Significant OIG resources were devoted to work in the Stewardship challenge:
OIG focuses its efforts on
                                • In audit, the primary focus was auditing PBGC’s financial statements and
financial management,             conducting associated work.
 fraud prevention and           • In investigations we identified, assisted with prosecuting, and obtained recoveries
                                  from those who fraudulently received pension benefits. We also identified
 protecting participant
                                  weaknesses in particular pension benefit payment processes to prevent future
          data.                   fraud.
                                • The OIG financial audit manager is participating in the PBGC audit follow-up
                                  working group which is developing an agency directive to guide PBGC officials’
                                  responses to audit reports from OIG and GAO.


                              Audit of the Pension Benefit Guaranty Corporation’s
                              Fiscal Year 2007 Financial Statements

                              In accordance with the IG Act of 1978 and the Government Corporations Control Act
                              of 1945, the IG contracted with Clifton Gunderson LLP (CG) to conduct the audit of
                              PBGC’s FY2007 financial statements. The audit will be conducted in accordance with
                              Government Auditing Standards, U.S. Generally Accepted Auditing Standards, and the
                              GAO/PCIE Financial Audit Manual (FAM).

                              CG will issue a combined audit report, to be published by November 15, 2007, that
                              includes:
                                •	 an opinion on the financial statements,.
                                •	 an opinion on management’s assertion on the effectiveness of internal controls
                                   over financial reporting and compliance with applicable laws and regulations, and,
                                •	 a report on the results of CG’s testing of compliance with applicable laws and
                                   regulations.

                              CG will also opine on the special-purpose financial statements prepared by PBGC for
                              submission to the Treasury through the Government-wide Financial Reporting System.
                              These special-purpose financial statements directly link PBGC’s audited financial
                              statements to the FY2007 Financial Report of the United States Government.

                              This year, the internal control opinion will be a high-level discussion of significant
                              deficiencies for the public’s use. CG will prepare a limited disclosure report with

                          8   Pension Benefit Guaranty Corporation
detailed findings and recommendations related to the significant deficiencies
identified, as well as a management letter which includes findings and
recommendations concerning:

  • improvements needed in internal control found during the audit but not required
    to be reported in the internal control portion of the combined audit report, and
  •	 other management issues.
                                                                                                 OIG continues to
Maintaining and improving communication continues to be very important to the OIG,
CG, and Acting Chief Financial Officer (CFO). In late March, the OIG and CG held an             work with PBGC to
entrance conference to kick off this year’s audit. CG and the OIG are working closely           strengthen financial
with the Acting CFO to coordinate and facilitate receiving the documents and items
needed by the auditors for testing. CG and OIG auditors meet regularly with the CFO               management.
and other PBGC management officials to discuss the status of the audit, including any
potential or confirmed significant issues and audit findings.

The Acting CFO also invited the auditors to participate in periodic meetings to discuss
and understand PBGC’s interim (quarterly) financial statements for the periods ending
March 31 and June 30, 2007. This provided CG and the OIG with an opportunity to
understand interim results and identify issues early in the process.

CG’s preliminary draft report on internal controls, as well as the limited disclosure
report, will be provided to management by mid-October. The date for issuance of
these preliminary draft reports was extended so that the auditors would have the
opportunity to review management’s corrective actions related to the four significant
deficiencies (formerly reportable conditions) identified in the FY2006 Auditor’s Report
on Internal Control, as well as findings and recommendations included in the FY2006
management letter.

Sensitive Payments Testing

In conjunction with the FY2007 financial statement audit, the OIG performed testing
of sensitive payments, as required by the FAM. As part of this work, we performed
testing of senior level management activities and expenses, such as compensation,
travel, perquisites, preparation of required financial disclosure forms, and PBGC vehicle
usage. We tested the expenditures, activities, and related financial transactions for
compliance with applicable laws, regulations, and PBGC policies and procedures;
adequacy of the internal controls, including proper authorizations; and the proper
recording and reporting of these expenditures. The testing was conducted in
accordance with the GAO FAM and the GAO Sensitive Payments audit guide and the
results incorporated into the financial statement audit reports, as appropriate.

New Audit Standard on Internal Control Briefed to
Senior Staff and the PBGC Advisory Committee

Effective for the FY07 financial statement audit period, there is a significant
change for reporting on internal control. The American Institute of Certified
Public Accountants issued new Statement on Auditing Standard No. 112, that


                             Semiannual Report Of The Inspector General—September 2007      9
                          governs how the auditor communicates internal control matters identified
                          in the financial statement audit. The most significant impact of this standard
                          relates to the auditors’ reporting of significant weaknesses in internal controls
                          that have a “direct and material effect on the financial statements” (including
                          safegarding of assets). In the past, the auditors classified these weaknesses as
                          material weaknesses (the highest level of significance), reportable conditions, or
                          less significant management letter comments. Under the new standard, reportable
                          conditions will be called “significant deficiencies.” In addition, the threshold for
                          reporting weaknesses in the Report on Internal Control has been lowered.


                          During the FY2007 financial statement audit, using the new standard, the
   Audit reporting        external auditor will reevaluate open recommendations reported in prior
standards tightened in    management letters taking into account the new standard. As a result, the
                          auditor may need to report some former management letter comments
       FY2007.            (individually or in the aggregate) as significant deficiencies in the Report on
                          Internal Control.

                          In May and June 2007, the OIG, together with the Contracts and Controls
                          Review Department briefed PBGC senior staff and the PBGC Advisory
                          Committee on this new standard and its implications for PBGC.

                          Investigations

                          Since one of PBGC’s primary missions is to pay pension benefits to participants
                          whose plans can no longer do so, a major emphasis of investigations is fraud
                          deterrence. We accomplish that by aggressively identifying the perpetrators,
                          seeking federal or local prosecution, obtaining agreements to repay stolen
                          money to PBGC, or providing sufficient evidence to PBGC for administrative
                          collection efforts. We also deter fraud by educating PBGC employees and
                          contractors about fraud indicators and identifying program weaknesses
                          that can be exploited for fraud. While the amount of recoveries is not large,
                          OIG aggressively pursues these cases to deter fraud. Some of the cases we
                          concluded this period include:

                           •    Arrest for theft of $15,000. We previously reported that a participant’s daughter
                               failed to report her father’s death to PBGC and received $15,000 to which she was
                               not entitled. The daughter confessed the fraud to the OIG investigator and stated
                               she would repay the $15, 000 to PBGC in lieu of criminal prosecution. After her
                               confession, however, the daughter failed to cooperate in the repayment process,
                               became elusive and refused to contact the PBGC. After a year of pursuing leads,
                               we located the daughter again. Working jointly with the Michigan State Police, the
                               daughter was arrested and is being prosecuted at the local level. A special thanks
                               to Detective Sergeant David Robertson of the Michigan State Police in Detroit,
                               Michigan.




                     10   Pension Benefit Guaranty Corporation
  • Recovery of $25,000. Based on a referral from the Benefits Administration and
    Payment Department, we investigated a participant’s daughter who continued to
    receive pension payments from PBGC for more than five years after her mother’s
    death. The payments were electronically deposited into a jointly held bank
    account until PBGC learned that the participant was deceased through a data
    match against Social Security’s records. The OIG investigator tracked the suspect
    to another state and obtained an agreement for repayment of more than $25,000
    in lieu of criminal prosecution.

  • Prevention of fraudulent benefit claim.  The Appeals Division within OGC
    requested our assistance to investigate an allegation that the former spouse of a
    deceased Eastern Airlines employee made false statements and claims to PBGC in
    order to receive benefit payments as the surviving spouse. In a joint effort with
    the Appeals Division, the investigation substantiated that while the former spouse        You can run, but you
    and participant were married at one time and then divorced, they never lived              can’t hide if you steal
    in common law marriage any time after their divorce. The investigation did not
    disclose any witnesses or records to support the former spouse’s claim. As a result,          pension benefits!
    the Appeals Division denied her fraudulent claim for a surviving spouse benefit.

  • Referred possible fraud in on-going pension plan to DOL. A participant in a Sheet
    Metals Workers Union pension plan called the OIG alleging he had been cheated
    by the Union and the Union’s pension board because he was given 10 years less
    credit than he was entitled. The participant also said he had documents and
    information showing that individuals were receiving retirement credit for more
    years than they had actually worked. He reported that he and his family had been
    physically threatened because he was trying to report the corruption he believed
    was going on in the administration of the pension plan. Because this plan is on-
    going, it is not within PBGC’s jurisdiction. We briefed and referred the matter to
    the Enforcement Division of the Employee Benefit Security Administration at the
    Department of Labor. We notified the participant of our referral to the Department
    of Labor, who expressed his gratitude for taking his complaint seriously.


Employee Defrauds PBGC Benefit Program

Upon a referral by the program manager, we investigated whether an employee
submitted false documentation to the Federal Employee Education and Assistance
Fund (FEEA) in order to meet eligibility requirements for the Child Care Subsidy
Program offered by PBGC. The investigation disclosed that the employee made false
statements and submitted false tax returns to FEEA, through PBGC, from 2002 - 2006
in order to qualify and maintain eligibility to receive the child care subsidy. During the
course of the investigation, the OIG discovered the employee had not actually filed
tax returns with the Internal Revenue Service for several years. The OIG eventually
obtained a statement from the employee admitting that the employee had not filed
tax returns for 2001 through 2005 until approximately January 2007. Upon declination
of criminal prosecution, we issued a report of investigation to management for
administrative discipline. Upon review, management suspended the employee
without pay.


                             Semiannual Report Of The Inspector General—September 2007       11
                           3.	     PBGC Business Model
                           PBGC’s business environment is changing. For example, PBGC expects the current
                           decline of pension plan terminations and fewer participants will continue over the
                           next few years, and it will receive more premium income as a result of the Pension
                           Protection Act. It needs to improve its information security program (see management
                           challenge below) and make decisions about updating old business systems in an era
                           of relatively static budget projections. It is a small federal entity dealing with some of
                           the largest and most sophisticated U.S. corporations in negotiations and litigation to
    Business Model         protect pension plan participants. One of PBGC’s significant management challenges
                           is to adapt how it conducts business in its changing environment — to have the
  challenge: how can       right staff and resources in the right place when it is needed. In the “Business Model”
   PBGC adapt to its       challenge, OIG conducts work to evaluate PBGC programs and identify options for
                           adapting to its changing environment while providing superior service and generating
changing environment       cost-savings.
while providing superior
                           PBGC’s Multiemployer Program
service and generating

     cost-savings.         Though the majority of PBGC’s resources are devoted to single-employer pension
                           plans, PBGC is also responsible for multiemployer plans. These are plans sponsored
                           by several employers, generally covering employers in the same industry whose
                           employees are represented by a union. The multiemployer plans are governed by
                           trustees from the employers and unions and, until recent years, were not a significant
                           financial impact on PBGC. Each year, PBGC is providing more plans with financial
                           assistance to pay their benefits and the multiemployer trust fund has experienced an
                           increasing deficit. From 2005 to 2006, this deficit has grown from $335 million to $739
                           million.

                           As the financial risk to PBGC is growing and the multiemployer program resources
                           are few, we consulted with program officials on multiemployer pension plan work
                           that would be valuable. This is the second in a series of planned audits to address this
                           growing risk and make recommendations for an improved business model.

                           Audit of Terminated but Solvent Multiemployer Plans

                           This project is to audit several terminated but solvent multiemployer plans. These
                           multiemployer plans are considered terminated when the employers associated with
                           these plans stop making contributions and they all withdraw from the plan. Also, the
                           plan participants stop accruing benefits. Even though these plans are terminated, the
                           plans normally still have sufficient assets to pay participants their benefits and to pay
                           for the administrative costs to operate the retirement fund for some years.

                           Eventually, most of these terminated plans’ assets will be depleted and they will not
                           have funds to pay their participants and administrative costs needed to operate. At
                           such time, the plans request financial assistance from PBGC to operate. We have been
                           in discussions with PBGC about possible ways to take action now to better protect the


                     12    Pension Benefit Guaranty Corporation
assets of the plans and reduce the potential costs that PBGC would incur in assisting
these plans without any interruptions in the participants’ benefit payments. We will
issue the results of this audit in the next reporting period.

Multiemployer Retirement Fund Management Letter
(2007-11/PA-0037-2)

During the audit of the multiemployer plan above, we identified some internal control
matters that, if corrected, would strengthen the plan’s administration. These matters
related to compliance with the plan’s notification requirements, record keeping, and
ensuring that a disbursement error was corrected. We discussed these administrative
matters with PBGC officials. Because multiemployer plans remain under the oversight
the Department of Labor, we are discussing these matters with Department of Labor
officials for appropriate transmission to the Plan.


Follow-up on prior multiemployer audit

In the previous semiannual report, we reported on our first audit in the multiemployer       In response to audit
pension plans area: looking for opportunities for PBGC to reduce the administrative         report, management
costs PBGC pays to terminated and insolvent multiemployer plans. Our audit
reviewed administrative costs for the 10 smallest insolvent multiemployer plans and              funded annuity
concluded that these costs were disproportionate when compared to the benefits               purchases for small
paid to participants. We estimated that PBGC could save about $2 million of future
multiemployer trust funds if PBGC purchased annuities or paid lump sums to each            multiemployer insolvent
plan participant. PBGC agreed with our recommendations and has closed 3 insolvent            plans to save future
multiemployer plans since April. In addition, annuity quotes have been requested
for two additional plans and PBGC expects both plans to be closed by the end of this        trust fund payments.
calendar year. The remaining five plans identified in our report have issues such as the
collection of withdrawal liability or clean-up of deferred vested participant lists. As
PBGC resolves the remaining issues, PBGC expects to close these five plans.


4.	     Information Technology

PBGC’s mission of protecting and providing pension plan retirement benefits for
over 44 million Americans relies heavily on the integrity and security of the PBGC
information systems network, and the confidentiality, completeness, accuracy, and
availability of information and information processing requirements for pension
benefits. In the past, information security has been reported as a reportable condition
in financial statement audit’s internal control report.

We continue to perform work to assist the Corporation in meeting the challenge of
providing enhanced customer service, including protecting the integrity and privacy
of pension plan participants’ information.




                            Semiannual Report Of The Inspector General—September 2007       13
                             Ariel Application System Post-Implementation Audit
                             2007-7/IT-0020

                             We engaged Accretive Solutions, Inc. to assist us in performing a post-implementation
                             and performance audit of the Ariel application, a replacement system for PBGC’s
                             existing Actuarial Calculation Toolkit II.

                             Since the time Ariel was implemented and the Corporation’s actuaries began using
                             it, many users and management officials have raised concerns about the cost,
                             performance, and overall management of the Ariel project. Because Ariel plays a
                             significant role in PBGC’s long term business needs, has taken a long time to develop,
                             and has been an expensive system for the Corporation to develop and implement, our
                             office initiated a review of the Ariel project. Specifically, the objectives of this audit
                             were to answer the following questions:

                               • Has the Ariel application implementation met its established performance and cost
                                 projections?
                               • Has the vendor complied with PBGC policy and procedures during modifications
                                 and development, implementation, and operations?
                               • Have appropriate information technology and business controls been
                                 implemented and tested for proper functionality?
PBGC needs to reassess

 and verify costs and        Overall, we concluded that PBGC needs to reassess and verify the cost and benefits
                             of Ariel before making any additional investments in this application. The estimated
benefits of Ariel before
                             cost and benefits of the project have never been adequately documented and the
  making additional          project has experienced delays. As a result, the initial sole source contract for Ariel’s
                             development grew from an initial obligation of about $500,000 with a ceiling of just
     investments.
                             over $900,000 to more than $2.8 million after six amendments. The second sole source
                             contract for Ariel’s implementation grew from $1.8 million to over $31 million with 13
                             amendments. Additionally, there was a separate sole source contract for a consultant
                             to work with the implementation of Ariel in the amount of $757,000. PBGC also needs
                             to solicit proposals, before modifying the existing contract, to determine if there are
                             other vendors that can provide a better solution for valuing plan benefits or providing
                             the necessary services at a competitive cost.

                             We found that the contractor generally complied with PBGC policy and procedures
                             during development, implementation, operations and modifications. Our review also
                             identified various business and technology controls at PBGC and at the contractor’s
                             site. These controls are related to the business processes performed by Benefits
                             Administration and Payment Department (BAPD) staff using Ariel and technology
                             controls related to application processing, change management, testing, and
                             information security. Although we found the controls are generally adequate, we did
                             identify areas where improvement is needed.




                        14   Pension Benefit Guaranty Corporation
We recommended that PBGC improve the management of the Ariel project by:

  • Re-assessing and verifying the costs and benefits of Ariel before making any
    additional investment in this application;
  • Soliciting other contract proposals to determine if there are other vendors
    available for valuing plan benefits; and
  • Ensuring compliance with the requirements in the IT systems life cycle
    methodology when investing additional resources in Ariel.
PBGC management agreed with our recommendations, stating they were already
implementing a number of them, and welcomed the opportunity to improve their
processes in planning and obtaining information technology solutions for participant
services.

Continuity of Operations and Contingency Planning

PBGC made such significant progress this year in continuity of operations and
contingency planning (commonly called COOP) that this reportable condition was
closed and only a few management letter comments remain. A fully engaged team
of PBGC representatives from all areas within the Corporation, led by the Facilities
and Services Department, developed a comprehensive contingency plan along with
needed improvements to its existing COOP. The OIG is a member of this working
group and has observed continued cooperation from all areas which contributed to
PBGC’s successful corrective actions. Some of the more positive results of this project   PBGC’s actions resulted
included:
                                                                                               in resolving the
  •	 A completed business impact analysis                                                 continuity of operations
  •	 Engagement and support of PBGC Senior Staff                                               and contingency
  •	 Focused and objective-oriented testing
                                                                                           planning reportable
  •	 Signed COOP policy
                                                                                                 condition.
  •	 Improved identification and evaluation of critical and essential processes


Additionally, PBGC has engaged the services of an independent consultant to
review a number of the exercises conducted in FY2007 and provide a report on
their observations. This report will also provide management with suggestions for
improving and maturing its COOP and contingency planning processes.
The OIG will continue to monitor PBGC’s testing and provide feedback to management
to help achieve their goal of having a reliable plan for recovery of operations in the
event of a disaster or emergency situation.

Federal Information Security Management Act Report

PBGC continues to improve its system security infrastructure and posture in
compliance with the Federal Information Security Management Act (FISMA) of 2002,
as reported to the Office of Management and Budget (OMB). During FY2007, PBGC


                             Semiannual Report Of The Inspector General—September 2007    15
                              continued to take significant steps to identify levels of security required to control
                              and protect its assets and information, and further improve its security program. For
                              example, this year PBGC:

                                •	 Identified the need to create a robust risk management and security program to
                                   close out existing audit findings related to information security.
                                •	 Implemented a corporate-wide plan of action and milestones (POA&M) process to
                                   identify, track, monitor and report security related issues.
                                •	 Completed and initiated the roll-out of role-based training for all staff members
                                   based on current job responsibilities.
                                •	 Developed comprehensive policy guidance for implementing security practices
                                   and assigning accountability for compliance.
                                •	 Improved the structure and reporting lines for security-related positions within the
    PBGC continues to
                                   corporation.
improve its system security   For the past several years PBGC’s information security internal controls and operational
      infrastructure.         conditions was a reportable condition, and continues as a significant deficiency today.
                              Although PBGC continues to make progress in information security, enhanced efforts
                              are still needed in the areas of organizational responsibility and authority, policy
                              development and implementation, and risk assessment and mitigation.

                              Certification and accreditation of major business and general support systems
                              continues to be a major area of concern. We have previously reported this issue in
                              our FISMA report and continued this year, as OMB increases its focus on this aspect
                              of information security. PBGC has recently overhauled its process for certifying
                              and accrediting all of its major business applications and general support systems
                              following the determination by the OIG’s independent auditors that previous
                              certifications and accreditations needed improvements. Plans are for all systems to
                              have been through the C&A process in FY 2008.

                              Additionally, PBGC has made progress in identifying and improving its adherence to
                              requirements and guidance, such as National Institute of Standards and Technology
                              and Federal Information Processing Standards.

                              Protection of Personally Identifiable Information

                              In conjunction with FISMA, we performed a high-level review of PBGC’s compliance
                              with OMB Memorandum 07-16. With regard to the Privacy Act and Personally
                              Identifiable Information (PII), PBGC has implemented policy and processes that require
                              all staff, both employee and contractor, to ensure PII is protected from unintentional
                              disclosure. In addition, a process is established to conduct a Privacy Impact Analysis
                              for all systems on an annual basis with a review and sign-off performed by the Senior
                              Privacy Official.




                        16    Pension Benefit Guaranty Corporation
OIT referral results in recovery of missing laptops

After PBGC’s Office of Information Technology conducted an inventory of laptop
computers and discovered they could not account for several, they reported the loss to
our office for investigation.

  • Missing laptop found at contractor’s home. This investigation revealed a PBGC          OIG and OIT joint efforts
    contractor had taken one of the laptop computers to his residence for personal
    use over the past four years. The laptop had not been assigned to the contractor       led to recovery of missing
    nor was the contractor given permission to keep the laptop at home. With the                laptop computers.
    assistance from the local police department, OIG special agents searched the
    contractor’s residence and the laptop was recovered. The laptop has been sent
    for forensic analysis to determine if any Personally Identifiable Information was
    contained on the laptop. This case is on-going.

  • Former employee arrested for laptop theft. This investigation resulted in a criminal
    charge of theft of government property. A PBGC federal employee was terminated
    and, unbeknownst to PBGC, took two laptop computers. We were able to track the
    usage of the computers to another state. A joint investigation with the Greeneville
    County Sheriff’s Office resulted in the arrest of the former employee for larceny
    and recovery of the two laptop computers. The case is currently being prosecuted
    in the state court of South Carolina. The laptops will be returned to PBGC upon
    final disposition of the criminal case.



5. Procurement and Contracting

Procurement and Contracting remains a significant activity and management
challenge:

  •	 In FY2007, the Corporation continued to spend more than 2/3 of its annual budget
     through procurement and contracts;
  •	 PBGC has stated that its “staff” is comprised of about 1/3 federal employees and
     2/3 contract employees.


In the past we have noted that the Corporation awarded a large percentage of labor
hour contracts and a relatively small percentage of performance based contracts.
The PBGC Contracting Officer has taken action to change this practice. By an Order
issued in September, PBGC established its “policy to use as a first choice fixed priced
performance-based competitive procurements.” In addition, for labor-hour contracts
in FY2007, the Contracting Officer reported PBGC awarded fewer and on-going
contracts decreased from 64% to 52%, with an expected decrease in FY2008 to 32%.




                             Semiannual Report Of The Inspector General—September 2007     17
                            As is common across the federal government, PBGC contracts out for much of its
                            information technology (IT) services. For example, in FY2007, the Corporation’s
                            budget for services contracts was about $257 million, of which more than $56 million
                            was for IT service contracts. Based on OIG’s FY2007 risk assessment , we identified
                            the top five IT contractors with contracts valued at more than $124 million dollars.
                            We audited three contracts involving two contractors with billings of $30.5 million
                            to PBGC. Of this amount, we questioned costs of $984,254, or 3 percent. Overall, for
 PBGC established a         this semiannual reporting period, we issued 4 reports on incurred costs that identified
                            more than $1 million in questioned costs.
policy to use fixed price

 performance-based          In addition, we issued a trend report that summarized audit work done over the past 7
                            years in procurement and contracting at PBGC to assist the new Procurement Director
 contracts and reduce
                            in addressing systemic issues.
labor-hour contracts.
                            Incurred Cost Audit of PBGC Contractor
                            (2007-8/CA-0033-1)

                            We audited cost representations in invoices submitted to PBGC by a contractor to
                            provide pension auditing services. We evaluated whether costs incurred for fiscal years
                            2003 - 2006 were allowable, reasonable, supported and consistent with contractual
                            provisions. For the four years audited, the contractor billed PBGC $19,226,658,
                            excluding the $50,000 retention fee withheld by the Procurement Department. Of this
                            amount, we sampled $5,515,572, or 29 percent of the four years’ costs.

                            We questioned $167,459 of the sampled costs tested, or 3%, based on the following
                            issues:

                             •	 Questionable experience and education of contractor employees of $147,681 as
                                compared to contract requirements; and
                             •	 Billings for employee’s lunch period of $19,778.

                            The report recommends disallowance of the $167,459 and initiation of necessary
                            collection actions.

                            Agreed-Upon Procedures for Incurred Cost Audits of PBGC Contractors
                            (2007-13/CA-0038-1, 2007-14/CA-0038-2, and 2007-15/CA-0039)

                            We hired an Independent Public Accountant (IPA) to examine cost representations in
                            invoices submitted to PBGC by contractors to determine whether the costs incurred
                            were allowable, reasonable, supported and consistent with contractual provisions. We
                            issued three audit reports in September in which we recommend corrective actions
                            including determination of the reasonableness of the questioned costs and initiation
                            of necessary collection actions.




                       18   Pension Benefit Guaranty Corporation
  • For a contractor that provided database administration and technical support, and
    UNIX administration and technical support, the IPA audited costs for the fiscal
    years 2001 - 2003 and 2005 - 2006 (excluding 2004). For the five years audited, the
    contractor billed PBGC $21,934,799. The audit report questioned $533,081, or 2%,
    of the billed costs related to the following issues:

     •	 No support for labor hour billings of $52,380;
     •	 Unsigned timesheets by employee and supervisor of $81,667;
     •	 Erroneously billed government holidays of $9,248;
     •	 Erroneously billed subcontractor costs of $29,142;
     •	 Unapproved subcontractor costs of $95,142; and
     •	 Unverified education and experience for all employees of $265,502.
 • For a contractor that provided systems engineering services, the IPA audited costs
   for fiscal years 2005 and 2006, during which the contractor billed PBGC $2,056,487.
   The IPA’s report questions $113,782, or 5.5%, of the billed costs related to the
   following issues:                                                                           OIG audits identify

     •	 No timesheet support for employee of $2,051;                                      more than $1 million in
     •	 Erroneously billed subcontractor costs of $82,880;                                     questioned costs.
     •	 Unapproved subcontractor costs of $3,215; and
     •	 Unverified education and experience for all employees of $25,636.

 • For a contractor that provided systems engineering services, the IPA audited fiscal
   years 2004 - 2006, during which the contractor billed PBGC $6,591,396. The IPA’s
   report questions $337,391, or 5 %, of the billed costs related to the following
   issues:

     •	 No support (Time Logs) of billings for five employees of $125,488;
     •	 Unapproved billings for offsite personnel of $41,843;
     •	 Erroneously billed subcontractor costs of $9,502;
     •	 Unapproved subcontractor costs of $68,883; and
     •	 Unverified education and experience for employees of $91,675.


Trend Analysis Report of PBGC Procurement Issues from 2000 – 2007
(2007-6/CA-0036)

This memorandum report highlights audit trends in the procurement and
contracting area, and provides a status of the audit recommendations addressed
to the Procurement Department. We analyzed 71 reports issued since 2000 by
the GAO, PBGC’s Contracts Controls and Review Department, and the Office of
Inspector General. These reports contained 100 recommendations to improve PBGC’s
procurement activities and contractor oversight. This trend report identifies major


                            Semiannual Report Of The Inspector General—September 2007     19
                                 problem areas and causes of these problems to assist PBGC’s new Procurement
                                 Director.

                                 During this period, the reports identified more than $12 million in questioned
                                 costs and recommended recovery from contractors. Two of the leading causes for
                                 questioned costs were contractors: (1) did not maintain adequate documentation
                                 to justify the costs they billed PBGC, and (2) hired employees who did not have the
                                 qualifications required under the contract.

                                 We reported that 45 of the 100 recommendations issued were closed based on our
  Trend report identifies        review of PBGC’s corrective actions. After the report, we closed an additional 24
                                 recommendations. Implementing the remaining recommendations will help PBGC
systemic contracting issues
                                 address persistent issues that cause procurement and contracting operations to be a
   for new Procurement           major management challenge and lead to improvements.
         Director.
                                 Work in Process
                                 We expect to issue a draft report on PBGC’s contract administration of the PBGC
                                 contract audited in 2007-13/CA-0038-1, discussed above, by October 31, 2007.

                                 Additionally, we are following up on issues identified in reports 2007-14/CA-0038 and
                                 2007-15/CA-0039, discussed above, and expect to issue two performance reports on
                                 PBGC’s administration of the three IT contracts by December 28, 2007.

                                 Contractor Employee Submits False Timesheets

                                 We received a complaint alleging that a federal employee in the Department of
                                 Insurance Supervision and Compliance was conspiring with a PBGC contractor
                                 to approve hours fraudulently billed to PBGC. The investigation disclosed no
                                 questionable activities on the part of the federal employee; however, we discovered
                                 that the contractor made false statements on her time record to receive payment for
                                 days and hours she did not work. We referred the matter to PBGC management for
                                 administrative recovery of improper payments and made recommendations to help
                                 prevent future occurrences. Management action is pending.

                                 Advisory Memorandum to Procurement Director

                                 The Procurement Director asked us to investigate an alleged procurement violation
                                 resulting in the disclosure of pricing information to competing contractors. The
                                 investigation did not substantiate that specific pricing information was divulged from
                                 an official source. However, our investigation identified procedural weaknesses that
                                 could have jeopardized the integrity of the procurement process. For example:

                                  • Pricing information was given to TEP members without instructions as to its use.




                            20   Pension Benefit Guaranty Corporation
 • Unencrypted sensitive/privacy information was sent by e-mail.
 • A staff member working with pricing information was not properly trained to
   handle such sensitive data.                                                           Investigation identifies

                                                                                        procedural weaknesses in
We communicated these weaknesses to management to help protect the integrity of
the procurement process.                                                                the technical evaluation

                                                                                                process.

Other OIG Reporting
Access to Information

Under the Inspector General Act, the Inspector General is to have unfettered access
to all agency records, information, or assistance when engaged in an investigation
or audit. Whenever access to requested records, information, or assistance is
unreasonably refused or not provided, the Inspector General must promptly report the
denial to the agency head.

During this six month reporting period, the Inspector General’s access to information
was not restricted.

Management Decisions

The Inspector General is required to report the following about management decisions
on audit reports that occurred during this six-month period:

 • There are four audit reports for which management decisions are pending.
 • There were no significant revised management decisions.
 • There were no management decisions with which the Inspector General
   disagreed.




                            Semiannual Report Of The Inspector General—September 2007   21
22   Pension Benefit Guaranty Corporation
Other Office of Inspector
General Activities
Review of Proposed Statutory and Regulatory
Changes

Statutes
A major responsibility of the OIG under the IG Act is to independently review
changes to laws and regulations that are proposed by PBGC. ERISA was amended
in August 2006 by the Pension Protection Act of 2006 (PPA) to provide simplicity,
flexibility, accuracy and stability in the defined benefit pension insurance program
that PBGC administers; there were no significant statutory proposals this period. As
described below, the IG and Deputy IG have been actively engaged on the Legislation
Committee of the IG community in reviewing multiple proposed House and Senate
bills to amend the IG Act.

Regulations
PBGC continues in a major effort to streamline its regulations and to improve
administration of the pension insurance program, with a focus on making pension-
related information more accurate, complete and transparent. Most of its recent
regulation changes were required to implement the Pension Protection Act’s
amendment of ERISA. Proposed regulations issued this period include those that:
require greater disclosure of termination information; clarify the Appeals Board’s
administrative authority; and set standards for who is required to file financial and
actuarial information under section 4010. Final rules included amendments to
regulations relating to premium rates and payment. We reviewed, provided written
comments, and had substantive conversations with the drafters of these proposed
and final rules.

Outreach to Field Offices
                                                                                                 OIG outreach to
During this period, OIG completed a major outreach effort to the PBGC Field Benefit
Administration (FBA) offices. OIG’s Office of Investigations and Office of Audits, along        PBGC’s field offices
with the Disclosure Division of Office of the General Counsel, visited five FBA offices.        results in increased
Our goal was twofold: to educate and inform the FBA offices on the role of the OIG
and to begin building a relationship with the FBA offices. Our office has emphasized            communications.
outreach to our stakeholders so that we can share information, issues and ideas to
work collaboratively to help PBGC identify operational improvements, and prevent
and detect fraud against PBGC programs. Though the FBAs are contractors, so not a
traditional “stakeholder,” they perform critical benefit payment processing and are on
the “front-line” to prevent and detect fraud for PBGC.




                             Semiannual Report Of The Inspector General—September 2007     23
                             The FBA offices provided feedback that our presentations were educational and the
                             information useful. In addition, we have increased our presence at the FBA offices
                             and we have a better understanding of the activities that take place on a daily basis at
                             those offices.


                             Audit Follow-up Working Group Established
                             When we surveyed the FY2006 financial statement audit participants they identified
                             the audit follow-up process as needing improvement (Lessons Learned report in
                             Semiannual Report to Congress October 1, 2006 to March 31, 2007). As a result, PBGC
                             and the OIG established a working group to “reengineer” the process of following
                             up on, and communicating the status of, outstanding audit recommendations in a
                             timely manner. The working group is comprised of the OIG, Chief Financial Officer,
                             Chief Operating Officer, Chief Information Officer and the General Counsel, as well
                             as representatives from various departments and the external auditors (Clifton
                             Gunderson). The working group has accomplished the following to date:

                               •	 Reengineered the audit follow-up process with respect to all types of audits,
                                  internal and external, whether financial, contract compliance, forensic, or
                                  performance related.
                               •	 Prepared a flowchart to reflect the revised process.
                               •	 Prepared a draft revised PBGC Order to reflect the new process and incorporate
                                  new audit terminology (e.g., significant deficiency).

                             Next Steps – Once the working group has come to agreement on the contents of
                             the draft revised order, it will be presented to the Interim Director and the remaining
                             Executive Management Committee members for comment and official issuance.

                             Peer Review of FLRA OIG Investigations
   OIG conducts first        Within the OIG community, we conduct peer reviews of audit and investigative
investigative peer review.   functions to assure quality programs. During this reporting period, we reviewed the
                             system of the internal safeguards and management procedures for the investigative
                             function of the Federal Labor Relations Authority Office of Inspector General. Our
                             review was conducted in conformity with the President’s Council on Integrity and
                             Efficiency (PCIE) and Executive Council on Integrity and Efficiency (ECIE) Quality
                             Standards for Investigations and the PCIE/ECIE Quality Assessment Review Guidelines.

                             External Activities
                             Various staff members participated in external professional activities, including:

                               • The IG was an active participant of the Executive Council on Integrity and Efficiency
                                 (ECIE), a council of Inspectors General that promotes collaboration on integrity,
                                 economy, and efficiency issues that transcend individual agencies. The IG,
                                 supported by the Deputy IG, served as member of the Legislative Committee that
                                 reviews proposed legislation affecting IGs. There are bills in the House and Senate
                                 to amend and strengthen the IG Act. On behalf of the ECIE IGs, the IG and Deputy


                        24   Pension Benefit Guaranty Corporation
    IG conducted a study of ECIE compensation, drafted proposed pay language, and
    solicited and outlined ECIE views on the Senate and House bills. Both the Senate
    and House expect to pass legislation this session, so we anticipate significant
    legislative activity again next period.
  •	 The Assistant IG for Audit is a member of the Federal Audit Executive Council
     (FAEC). The FAEC’s purpose is to discuss and coordinate issues affecting the
     federal audit community, with special emphasis on audit policy and operations of
     common interest to FAEC members. He serves on the FAEC’s Audit Committee that
     sponsored training in April on the new peer review guidance.
  • The Assistant IG for Investigations participated on a Curriculum Review Conference
    (CRC) on the Public Corruption and Integrity Investigations Training Program
    hosted by the Inspector General Academy. The purpose of the CRC was to update
    and refine the Public Corruption and Integrity Investigations Training Program.
    The program is designed to instruct investigators in the procedures, techniques
    and legal issues associated with investigating allegations of several types of
    employee and agency corruption. The pilot of the revised program will be held at
    Federal Law Enforcement Training Center, Glynco, GA in February 2008.
  •	 IT Audit Manager serves as the Program Committee Chair for a chapter of
     the Information Systems Audit and Control Association. This committee is
     responsible for setting the program for the monthly meetings so members have
     an opportunity to receive continuing professional education credits to meet their
     certification requirements in the fields of audit, technology, security, controls, and
     management for both the private and public sectors.


OIG’s Strategic Plan and Initiatives
Our Strategic Plan is focused in three “voices”: the Stakeholder, the Business, and the
Employee. We selected two major initiatives to which we’ve committed significant
resources this period to ensuring their successful implementation by January 2008:

  •	 Implement TeamMate, an electronic planning, tracking and workpaper software,
     (Voice of the Business); and
  •	 Develop and implement a new performance management system (Voice of the
     Employee).

Voice of the Business: The final edits were completed for the updated OIG Audit
Manual with approval for its use granted by the IG. Using the audit manual as
guidance, we began work on developing our solution to improving our audit process             OIG leverages technology
and the required supporting workpapers.                                                       to improve performance.

A team consisting of OIG staff and contractor, with input from OIG management,
have spent a majority of this period working on completing the development of our
automated workpaper package – TeamMate – for use by the audit staff beginning
January 2008. This package has a number of modules that will allow the OIG to plan,
coordinate, monitor, and manage our audits in a completely automated environment.
Once fully operational, this package will not only become our system for automated



                              Semiannual Report Of The Inspector General—September 2007       25
     workpapers, but will allow us to complete and monitor progress of our audit plans;
     issue and track recommendations; build and better manage our audit projects; and
     manage staff time and expenses related to our work schedules. Our plans are to begin
     training an audit team in October 2007 to pilot the package. At the completion of the
     pilot audit, plans are to roll-out training to the rest of the audit staff and begin use on a
     regular basis in the second quarter of FY 2008

     Voice of the Employee: We are in the process of implementing a new Performance
     Management System (PMS). Similar to the Corporation’s efforts toward a performance
     based management system, the OIG is implementing a PMS that recognizes the
     contributions of each employee to the success of the OIG’s mission, and creates an
     environment that is conducive to building a high performing organization. Our
     performance based management system will help recruit, develop, and retain staff
     with the competencies needed to be successful, and identify and acquire the staff
     capabilities necessary to accomplish the OIG’s mission. We anticipate implementation
     of the new PMS in January 2008.

     Self-Assessment and Certification of OIG General Support System
     Federal rules and regulations, such as FISMA, Office of Management and Budget
     (OMB) A-130, NIST 800-37, require that information and the systems that process it
     are invaluable assets that must be adequately safeguarded. Hence, adequate security
     of these assets becomes a fundamental responsibility of management and includes
     reasonable assurance that the:

       •	 Systems and applications operate effectively and provide appropriate
          confidentiality, integrity, and availability;
       •	 Protection of information is commensurate with the level of risk and magnitude of
          harm resulting from the loss, misuse, unauthorized access, and/or modifications;
          and
       •	 System security strategy and operations are properly designed and implemented,
          including assigning appropriate officials for security responsibility and system
          processing authorization prior to system operations, which are performed
          periodically thereafter.


     To that end, our office performed a self-assessment on the OIG’s general support
     system of the Local Area Network (LAN). The scope of the self-assessment
     encompassed the areas of OIG LAN management, operational, and technical controls
     designed, implemented, and utilized to protect the confidentiality, integrity, and
     availability of information and information processing. The self-assessment was
     performed and completed by reviewing and updating components of the OIG LAN
     certification package: Risk Assessment, Security Plan, and the Security Testing and
     Evaluation Program for the firewall, routers, and Windows and SQL servers.




26   Pension Benefit Guaranty Corporation
Appendix
CROSS-REFERENCE TO REPORTING REQUIREMENTS
OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the
Inspector General Act of 1978, as amended, to the specific pages in the report where
they are addressed.

Inspector General
Act Reference	         Reporting Requirements	                              Page
Section 4(a)(2)	       Review of legislation and regulations.	              23
Section 5(a)(1)	       Significant problems, abuses, and deficiencies.	     5-22
Section 5(a)(2)	       Recommendations with respect to significant 	        5-22
	                      problems, abuses, and deficiencies.	
Section 5(a)(3)	       Prior significant recommendations on which	          29
	                      corrective action has not been completed.	
Section 5(a)(4)	       Matters referred to prosecutorial authorities.	      10-11, 17, 		
		                                                                          30
Section 5(a)(5)	       Summary of instances in which information 	          21
	                      was refused.	
Section 5(a)(6)	       List of audit reports by subject matter, showing 	 28
	                      dollar value of questioned costs and
	                      recommendations that funds be put to better use.	
Section 5(a)(7)	       Summary of each particularly significant report. 	   5-22
Section 5(a)(8)	       Statistical table showing number of reports and 	    28
	                      dollar value of questioned costs.	
Section 5(a)(9)	       Statistical table showing number of reports and 	    28
	                      dollar value of recommendations that funds be
	                      put to better use.	
Section 5(a)(10)	      Summary of each audit issued before this 	           22
	                      reporting period for which no management
	                      decision was made by end of reporting period.	
Section 5(a)(11)	      Significant revised management decisions.	           22
Section 5(a)(12)	      Significant management decisions with which 	        22
	                      the Inspector General disagrees.	
		




                            Semiannual Report Of The Inspector General—September 2007       27
REPORTS ISSUED WITH QUESTIONED COSTS
AND FUNDS PUT TO BETTER USE*
For the Six-Month Period Ending September 30, 2007




                                                      Number          Questioned         Unsupported       Funds put to
                                                     of Reports         Costs              Costs**          Better Use

 A. For which no management decision had                  13           $5,949,654          $4,223,721              -0-
    been made by the commencement of the
    reporting period.
 B. Which were issued during the reporting                 4           $1,151,713           $179,919               -0-
    period

      Subtotal (Add A. & B.)                              17           $7,101,366          $4,403,640              -0-


 C. For which a management decision was                    8           $5,084,266          $4,219,480              -0-
    made during the reporting period.

      (i) dollar value of disallowed costs                 6            $429,033             $42,687               -0-


 (ii) dollar value of costs not disallowed                 5           $4,655,233          $4,176,793              -0-


 D. For which no management decision had                   9           $2,017,099              -0-                 -0-
    been made by the end of the reporting
    period.
 E.	 For which no management decision was                  5            $865,386             $4,241                -0-
     made within six months of issuance.



*This statistical information is required by Section 5(a)(6)(8) and (9) of the Inspector General Act of 1978, as
amended.
**Unsupported costs are a subset of questioned costs.




                     28         Pension Benefit Guaranty Corporation
SIGNIFICANT PROBLEMS, DEFICIENCIES AND RECOMMENDATIONS




Report Number, Report Title and       Number of              Significant Problems Summary of Significant
Date Issued                           Significant            and Deficiencies     Recommendations
                                      Recommendations
96-4/23093-2                                                 Reportable            PBGC needs to complete the
Audit of the Pension Benefit                                 Condition:            integration of its financial
Guaranty Corporation’s Fiscal                                Integrating           management systems.
Year 1995 Financial Statements                 1**           Financial
03/13/1996                                                   Management
                                                             Systems
2003-3/23168-2                                               Reportable            PBGC needs to complete its
Audit of the Pension Benefit                                 Condition:            efforts to fully implement and
Guaranty Corporation’s Fiscal Years                          Implementing          enforce an effective information
2002 - 2001 Financial Statements               2**           & Enforcing           security program.
01/30/2003                                                   Information
                                                             Security Program
2004-2/23176-2                                               Reportable            PBGC needs to improve controls
Audit of the Pension Benefit                                 Condition:            related to single-employer
Guaranty Corporation’s Fiscal Years            2**           Improving Single-     premiums.
2004 - 2003 Financial Statements                             Employer Premium
1/15/2004                                                    Accounting System
2006-1/FA-0014-1                                             Reportable            PBGC needs to strengthen its
Audit of the Pension Benefit                                 Condition:            preparedness for unanticipated
Guaranty Corporation’s Fiscal Years                          Strengthening         incidences and disruptions.
2005 - 2004 Financial Statements               3**           Preparedness for
11/15/2005                                                   Unanticipated
                                                             Incidences &
                                                             Disruptions
2007-7/IT-0020                                               Evaluating            PBGC needs to reassess and
Ariel Application System Post-                               Continued Use of      verify cost and benefits of Ariel
Implementation Audit                            3            Benefit Calculation   before additional investment,
 08/21/2007                                                  Software              and ensure compliance with IT
                                                                                   development methodology.


* This chart complies with Section 5(a)(1)(2) and (3) of the Inspector General Act of 1978, as amended.
** Includes Significant Recommendations from previous semi-annual reports on which corrective action has not
been completed.




                            Semiannual Report Of The Inspector General—September 2007         29
SUMMARY OF INVESTIGATIVE ACTIVITIES
For The Six-month Period Ending September 30, 2007
Investigations
	   Pending beginning of period	                             13
	   Opened	                                                   5
	   Closed	                                                   6
	   Pending end of period	                                   12
Inquiries
	   Pending beginning of period	                             11
	   Opened	                                                  13
	   Closed	                                                  16
	   Pending end of period	                                    8
Financial Recoveries*
	   Theft of Funds Recovered	                           $25,962
	   Court Ordered Fines, Penalties, and Restitution	         -0-
	   U.S. Government Property Recovered	                 $1,200*
Criminal Actions*
	   Arrests	                                                  2
	   Indictments	                                              1
	   Convictions	                                              0
Administrative Actions*
	  Terminations	                                              0
	   Suspensions	                                              2
	  Oral or Written Reprimand	                                 0
Referrals
	   For Prosecution:
		 Department of Justice	                                     3
		         Declined	                                          3
		 Various States’ Attorney Offices	                          0
		         Declined	                                          0
	   For Other Action:
		        PBGC Management for Corrective Action	              2

     * 	Results reported for Financial Recoveries, Criminal and Administrative Actions
     include both open and closed cases.
     ** Approximate value of 3 missing laptops recovered.




                     30       Pension Benefit Guaranty Corporation
Glossary
Questioned Cost
A cost the OIG has questioned because of an alleged violation of law, regulation,
contract, grant, cooperative agreement, or other agreement or document governing
the expenditure of funds; because such cost is not supported by adequate
documentation; or because the expenditure of funds for the intended purpose is
unnecessary or unreasonable.

Unsupported Cost
A cost the OIG has questioned because of a lack of adequate documentation at the
time of the audit.
		
Disallowed Cost
A questioned cost that management, in a management decision, has sustained or
agreed should not be charged to the government.
		
Funds to Be Put to Better Use
Funds the OIG has identified in an audit recommendation that could be used more
efficiently by reducing outlays, deobligating program or operational funds, avoiding
unnecessary expenditures, or taking other efficiency measures.
		
Management Decision
Management’s evaluation of audit findings and recommendations and issuance
of a final decision concerning management’s response to such findings and
recommendations.
		
Final Action
The completion of all management actions described in a management decision with
respect to audit findings and recommendations. If management concluded that no
actions were necessary, final action occurs when a management decision is issued.

Misconduct
Action of employees or contractors that violates laws, rules, or regulations and for
which corrective action is warranted.




                         Semiannual Report Of The Inspector General—September 2007
If you want to report or discuss confidentially any instance of
     misconduct, fraud, waste, abuse, or mismanagement,
                         please contact
                the Office of Inspector General.


                         Telephone:

              The Inspector General’s HOTLINE
                      1-800-303-9737

    The deaf or hard of hearing, dial FRS (800) 877-8339
     and give the Hotline number to the relay operator.

                            Web:

       http://oig.pbgc.gov/investigation/details.html

                           Or write:

           Pension Benefit Guaranty Corporation
                Office of Inspector General
                       PO Box 34177
               Washington, DC 20043-4177
